  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General

     ICE Policies Related to Detainee Deaths and the 

       Oversight of Immigration Detention Facilities 





OIG-08-52                                    June 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      June 11, 2008


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of U.S. Immigration and Customs Enforcement
(ICE) operations related to detainees who died in custody. We also analyzed certain medical
standards and ICE’s oversight of facilities that house immigration detainees. We based our report on
interviews with relevant agencies, direct observations, and a review of applicable documents and
data.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                         Richard L. Skinner 

                                         Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................................1 


Background…………………………………………………………………………………………...2 


Results of Review……………………………………………………………………………………..4 

   An Analysis of Two Immigration Detainee Deaths……………………………………………….4 

   Recommendations ………………………………………………………………………………..14                   

   Management Comments and OIG Analysis……………………………………………………...14 


     Oversight Can Be Improved at ICE Detention Facilities………………………………………...19 

     Recommendations ………………………………………………………………………………..26                                                                                              

     Management Comments and OIG Analysis……………………………………………………...26


     Additional Efficiencies in Medical Operations Can Enhance 

     Implementation of ICE’s Detention Standards………………………………………………… ..29 

     Recommendations ………………………………………………………………………………..33                    

     Management Comments and OIG Analysis……………………………………………………...34 


Appendices
  Appendix A:             Purpose, Scope, and Methodology.........................................................................35 

  Appendix B:             Management’s Comments to the Draft Report ......................................................36 

  Appendix C:             Recommendations..................................................................................................48 

  Appendix D:             Comparison of Various Detention Standards…………………………………….50 

  Appendix E:             Major Contributors to this Report............………………………………………..54 

  Appendix F:             Report Distribution……………………………………………………………….55 


Abbreviations
  ABA                     American Bar Association 

  ACA                     American Correctional Association

  DHS                     Department of Homeland Security 

  DIHS                    Division of Immigration Health Services 

  EHRs                    Electronic Health Records 

  ICE                     Immigration and Customs Enforcement 

  OFDT                    Office of Federal Detention Trustee 

  OIG                     Office of Inspector General 

  OPR                     Office of Professional Responsibility 

  RCC                     Regional Correctional Center 

  VA                      Department of Veterans Affairs 





                             ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                        Detention Facilities 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Immigration and Customs Enforcement houses a daily average of 28,700
                 detainees in 353 facilities nationwide. Various types of detention facilities,
                 such as service processing centers, contract detention facilities, and state and
                 local jails, are used to house these individuals. Immigration and Customs
                 Enforcement detention standards are used to inform facilities on expectations
                 regarding medical care, detainee access to legal materials, and other areas
                 related to facility management. Between January 1, 2005, and May 31, 2007,
                 33 immigration detainees died.

                 We reviewed two cases where immigration detainees died in custody. One of
                 these incidents occurred in St. Paul, Minnesota. The second incident took
                 place in Albuquerque, New Mexico. We evaluated how the agency and its
                 detention partners dealt with the two cases. In addition, we examined policies
                 related to detainee deaths, medical standards, and other issues. We gathered
                 data from the two affected detention facilities, examined the agency’s reports
                 completed after its monitoring visits to various facilities, and had discussions
                 with public and private-sector experts on detention standards.

                 Although there are compliance problems related to certain medical standards
                 at various facilities, ICE adhered to important portions of the detainee death
                 standard in the two cases that were the focus of this review. Based on
                 information received from clinical experts and our analysis, the two detainees’
                 serious pre-existing medical conditions led to their deaths. Although ICE’s
                 detention standards are comparable to other organizations, such as the
                 American Correctional Association, we are making 11 recommendations to
                 improve the standards, strengthen ICE’s oversight of facilities, and enhance
                 clinical operations and detainee safety.




               ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                          Detention Facilities 

                                                Page 1

Background
                  Immigration and Customs Enforcement (ICE), the largest investigative branch
                  of the Department of Homeland Security (DHS), was created in March 2003
                  by combining the law enforcement functions of the Immigration and
                  Naturalization Service and United States Customs Service. The Immigration
                  and Nationality Act authorizes ICE to arrest, detain, and remove certain aliens
                  from the United States.1 The agency’s average daily detainee population in
                  December 2007 was 28,702. This was a 61% increase compared to January
                  2006, as shown in Figure 1.
                                Figure 1: ICE's Average Daily Detainee Population, January 2006-
                                                        December 2007

                    35,000

                    30,000

                    25,000

                    20,000

                    15,000

                    10,000

                     5,000

                          0
                                    6


                                              6




                                                       06


                                                         6




                                                                             7




                                                                                                07


                                                                                                  7
                                                                                       7
                           06




                                                                    07
                                                        6




                                                                                                 7
                                  -0


                                           -0




                                                                           -0


                                                                                    -0
                                                     l-0




                                                      -0




                                                                                              l-0




                                                                                               -0
                                                    p-




                                                                                             p-
                         n-




                                                                  n-
                                                   ov




                                                                                            ov
                                ar




                                                                         ar
                                        ay




                                                                                 ay
                                                   Ju




                                                                                            Ju
                                                  Se




                                                                                           Se
                       Ja




                                                                Ja
                                M




                                                                         M
                                                  N




                                                                                           N
                                        M




                                                                                 M




                  ICE is charged with ensuring that removable aliens depart the United States.
                  ICE uses three types of facilities to house its detainees until they are deported:
                  Service processing centers are owned and operated by ICE; private companies
                  operate ICE’s contract detention facilities; and state and local jails with
                  intergovernmental service agreements house ICE detainees. Most service
                  processing centers and contract detention facilities use Commissioned Corps
                  Officers in the Public Health Service to deliver onsite medical care. The
                  partnership between the Public Health Service and federal immigration
                  agencies was initially established in 1891. Local jails rely mainly on other
                  onsite clinicians, such as contractors or staff employed by a county public
                  health department.


        1
            8 USC §§ 1226, 1227, 1229, 1229(a), and 1357.

                ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                           Detention Facilities 

                                                 Page 2

  ICE’s Detention Operations Manual stipulates the agency’s detention
  standards, which are designed to ensure facilities provide services that will
  protect detainees’ life and dignity. The standards contain rules on medical
  care, food service, access to legal materials, and various other areas. Facilities
  are to be inspected on an annual basis to ensure compliance with ICE’s
  standards. ICE staff is also responsible for visiting each facility to interact
  with detainees on a regular basis.

  In November 2000, the Immigration and Naturalization Service established
  detention standards to ensure the “safe, secure, and humane treatment” of
  detained immigrants. Discussions among federal immigration officials, the
  American Bar Association (ABA), the Department of Justice, and other
  organizations helped create the standards. Several of ICE’s 36 standards have
  been revised or expanded. Since the creation of DHS, two additional
  standards have been issued: (1) staff-detainee communication requirements
  were established in July 2003, and (2) detainee transfer policies were
  approved in September 2004.

  Other federal agencies have their own detention standards. The Office of
  Federal Detention Trustee (OFDT) in the Department of Justice ensures that
  federal agencies involved in detention operations provide for the safe and
  humane confinement of persons who are awaiting trial. OFDT is responsible
  for conducting annual facility reviews using Federal Performance-Based
  Detention Standards. OFDT and ICE inspect some of the same facilities.

  Private entities also have created detention standards. The American
  Correctional Association (ACA) and the National Commission on
  Correctional Health Care have more than 150 years of combined experience in
  creating and revising detention standards. Both entities accredit national,
  state, and local detention facilities that meet existing detention standards. In
  some areas, such as the placement of first aid kits and defibrillators, ICE
  requires adherence to ACA standards.

  ACA’s purpose is to promote improvement in the management of correctional
  agencies through the administration of a voluntary accreditation program and
  the ongoing revision of its standards. As with ICE and OFDT standards, the
  ACA covers a variety of subjects pertaining to the administration and
  management of detention facilities. For facilities seeking accreditation, ACA
  conducts onsite inspections every three years. According to ACA policy
  facilities are required to document compliance with the standards for each
  month over the three-year period.

  The National Commission on Correctional Health Care works to improve the
  quality of health care in correctional facilities. The Commission’s standards

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 3

                guide facilities on the delivery and management of health care in correctional
                systems. ICE’s service processing centers and contract detention facilities are
                required to maintain accreditation by the Commission.

                As a stakeholder in developing ICE’s standards, ABA has created a
                commission to help review detention standards at facilities housing
                immigrants and asylum seekers. The ABA’s Commission on Immigration
                ensures detainees are made aware of their rights, including access to legal
                materials, telephones, and group presentations. Working with volunteer law
                firms, the ABA visits facilities to review practices and suggest improvements.
                The ABA shares its site visit reports with ICE.

Results of Review
                This review examined two cases of detainee death, as well as ICE’s overall
                standards related to detainee deaths and the medical treatment of immigration
                detainees. The two detainees died as a result of serious pre-existing medical
                conditions. Although there have been problems with adherence to medical
                standards at the two facilities in question, ICE’s overall standards are
                equivalent to other detention organizations. ICE has been taking steps to
                enhance its ability to effectively monitor immigration detention facilities. Our
                recommendations focus on how ICE can make further improvements to the
                efficiency of clinical operations by developing better oversight procedures.

     An Analysis of Two Immigration Detainee Deaths

                The first detainee’s death occurred in April 2006, in St. Paul, Minnesota; the
                second death happened in September 2006, in Albuquerque, New Mexico.
                Although the two detainees were in ICE custody, the individuals were
                hospitalized at the time of death. According to ICE’s standards, both the
                agency and its detention partners are required to take certain actions when a
                detainee dies. In both of these incidents, the procedures outlined in the
                detainee death standard were performed, with the exception of a state
                notification requirement that we describe in our discussion of the Albuquerque
                incident. Pursuant to its statutory authority, the DHS Office for Civil Rights
                and Civil Liberties investigated a complaint concerning the Minnesota
                detainee death. The Office reviewed compliance with ICE’s medical care
                standard at the detention facility and made recommendations to ICE for
                possible improvements in detainee care.




              ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                         Detention Facilities 

                                               Page 4

  ICE’s Detainee Death Standard

  In September 2000, the Immigration and Naturalization Service created a
  standard for detainee deaths. This standard remains in place. Field office
  personnel we interviewed reported satisfaction with the standard itself.
  Detainees who die in custody do not always pass away in a detention facility;
  therefore ICE has different rules for situations where detainees die in other
  locations or in transit. From the notification of family to disposition of
  remains and personal property, ICE standards address the sensitivity that
  surrounds detainee deaths.

  Notifying the family is an important part of ICE’s detainee death procedures.
  Additionally, the standard requires notification of the applicable consulate.
  ICE also must prepare a condolence letter for the family that describes the
  circumstances of the death. After completing the necessary notification
  requirements, ICE is required to assist in other areas, such as autopsy
  arrangements. Before initiation of the autopsy, facilities must determine the
  detainee’s religious affiliation. This is important because some religions have
  specific restrictions involving autopsies, embalming, and cremation. When
  family members cannot afford the costs associated with transporting the
  remains, ICE may transport the remains to a location in the United States.

  ICE’s Office of Professional Responsibility (OPR) reviews detainee death
  cases. OPR’s management directive does not require the reporting of deaths
  to the OIG, nor were we provided any ICE policy documents that require the
  reporting of immigration detainee deaths to our office. However, OPR can
  refer cases to the OIG when ICE determines an outside review is warranted.
  An OPR manager informed us that the Joint Intake Center may report detainee
  deaths to the OIG or OPR. Likewise, the OIG’s Office of Investigations may
  refer various detainee death incidents to OPR. The DHS Office for Civil
  Rights and Civil Liberties also has reviewed detainee deaths and compliance
  with ICE standards.

  OPR has helped ICE improve detention practices after some detainee deaths.
  However, ICE should report all detainee deaths to the OIG. In the past, we
  have received information about detainee deaths on a sporadic basis, mainly
  through complaints to the OIG Hotline. Notifying the OIG of any detainee
  death would keep the OIG better informed and allow it to determine whether
  additional review is warranted in each case. A policy in this area could
  outline procedures for providing relevant records to the OIG, as necessary.

  ICE’s detainee death standard compares well to ACA and OFDT standards.
  Both ACA and OFDT point out the importance of mortality reviews, which
  can prompt changes to facility procedures and can potentially decrease the

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 5

  chance of additional deaths. Although ICE does not require mortality
  reviews, we noticed evidence of such reviews in the files of several detainees
  who died, including the two deaths that are the focus of this review.
  Clinicians with the Division of Immigration Health Services usually complete
  ICE’s mortality reviews.

  The St. Paul, Minnesota Case

  The immigration file of the detainee, who died in April 2006, shows an initial
  hearing before an immigration judge in November 1997. An October 1998
  letter instructed the individual to appear for deportation on November 3, 1998.
  The detainee did not appear for deportation. Thereafter, ICE considered the
  detainee a fugitive. ICE did not locate the detainee until February 2006, and
  arrested the detainee for not departing the United States in 1998.

  ICE held the detainee at the Ramsey County Law Enforcement Center. This
  facility is located in downtown St. Paul, Minnesota, and houses various
  individuals awaiting legal proceedings in the county. When this incident
  occurred, the facility housed 70 immigration detainees on an average day. For
  the first six months of 2007, the facility accepted 177 new ICE detainees.
  ICE’s 2006 monitoring report for the facility showed an acceptable overall
  rating.

  On April 3, 2006, at approximately 2:30 p.m., the detainee fell from a bunk
  bed and sustained a lump on the back of the head. The guard who arrived at
  the cell ensured that a nurse would see the detainee during 4:00 p.m. medical
  rounds. At that time, the detainee reported dizziness and headaches to the
  nurse. The detainee’s medical file includes information from the nurse
  reporting that the detainee was confused when the detainee returned to the
  cell. Four hours later, the detainee’s condition had deteriorated, prompting a
  nurse to order transportation to a nearby hospital.

  After arriving at the hospital, physicians diagnosed a serious condition known
  as neurocysticercosis, which is an infection of the brain by larva of the pork
  tapeworm. This disease caused the detainee’s death on April 13, 2006.
  Serious complications can result if the disease enters the central nervous
  system. The detainee reported a history of headaches that were not relieved
  by medication. The facility’s clinical protocols, which called for the use of
  aspirin for headaches, do not account for other possibilities, such as serious,
  pre-existing parasitic diseases as a cause of the problem. Although seizures
  are a common symptom of the disease, there was no evidence of seizures in
  the detainee’s medical file.



ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 6

          We identified two important facts related to the detainee’s medical care.
          Facility information we examined included a head trauma protocol. This
          document justified the detainee’s expedited transportation to the hospital after
          a nurse observed that the detainee was dizzy and confused. Additionally, the
          detainee did not receive a physical exam, which ICE medical standards
          require within 14 days of intake. However, after discussions with clinical
          experts and a review of medical literature, we concluded that neither more
          timely medical attention for the head trauma nor a more timely initial medical
          exam would have ensured the detainee’s recovery from neurocysticercosis.

          The case history showed that ICE did a commendable job implementing parts
          of the detainee death standard. We examined two “significant incident”
          reports prepared for ICE headquarters by the agency’s staff in Minnesota.
          Field office personnel send these reports to headquarters after serious events
          take place. ICE also left a message with the Consulate of Ecuador in Chicago.
          ICE also notified the detainee’s spouse. This timely compliance with steps in
          ICE’s detainee death standard did facilitate necessary actions, such as the
          return of the remains. Documentation also showed that the detainee’s spouse
          received some of the detainee’s personal property less than one week after the
          death. The detention standards do not have a time requirement for the return
          of property, but ICE made a good effort to ensure that this occurred.

          The death led to a debate within the Ramsey County government regarding
          whether to continue to house ICE detainees. The County Sheriff said that the
          Law Enforcement Center may not be the best place for ICE to house
          individuals longer than a few days. Media also reported that the sheriff was
          concerned about the ability to care for immigration detainees on an ongoing
          basis. “We’re not really prepared to translate, interpret, and assist that kind of
          population,” he said.2 After further discussions, in December 2006, the
          County Board of Supervisors voted four to three to maintain its agreement
          with ICE.

          Policy Improvements and Additional Education Efforts Would Help
          Identify and Treat Cysticercosis

          While ICE’s medical standards recognize the need to treat infectious diseases
          in general, they do not specifically mention cysticercosis. Furthermore, non-
          emergency radiology services, such as computed tomography scans or
          magnetic resonance imaging−methods of making detailed images of the body
          to identify problems that are not readily apparent−are not included in the
          Division of Immigration Health Services covered services package. Although
          case-by-case requests for coverage and payment of diagnostic tests are

2
    “No immigrant detainees in Ramsey County?,” Minneapolis Star-Tribune, December 19, 2006.

        ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                   Detention Facilities 

                                         Page 7

        possible, current policy does not specifically provide for proactive diagnosis
        of cysticercosis.

        The disease, which disproportionately affects Latin American immigrants, can
        infect humans who come in contact with the tapeworm that causes
        cysticercosis. The resulting cysts can migrate to various parts of the body,
        including muscles, the eyes, or the brain. In the central nervous system, the
        disease is known as neurocysticercosis, which was the cause of death in the
        St. Paul case. We cannot determine with certainty whether this death could
        have been avoided had the detainee received immediate medical attention for
        head trauma. However, ICE, in conjunction with the DHS Office of Health
        Affairs, should engage the Centers for Disease Control and Prevention to
        review the medical screenings provided for detainees, with special
        consideration of the origins of the population.

        According to medical journals and experts we interviewed, cysticercosis is
        expected to become more prevalent in the United States within the next
        decade. A neurology professor informed us that she has seen many more
        cases of the disease over the past five years. A leading journal also predicted
        that cysticercosis “will grow in clinical and public health importance” in the
        United States. This article reported that Latinos accounted for 85% of
        individuals who died of cysticercosis in the United States from 1990 through
        2002. After these deaths were studied, the authors wrote that the incidents
        reflect “immigration patterns in states that include substantial populations of
        immigrants from cysticercosis-endemic areas, particularly Mexico and other
        areas of Latin America.”3

        Based on ICE data for the period of October 2006 through November 2007,
        individuals from Mexico, Honduras, El Salvador, and Guatemala, countries
        where the disease is endemic, account for 79% of ICE’s total detainees, as
        shown in Figure 2.




3
  “Deaths from Cysticercosis, United States,” Emerging Infectious Diseases, February 2007, p. 230-
231, 233.

      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                 Detention Facilities 

                                       Page 8

                         Figure 2: Country of Origin for ICE Detainees, October 2006-
                                               November 2007





                                             All others
                                                21%


                                                                   Mexico
                                                                    49%
                                    Honduras
                                      11%


                                        Guatemala
                                          10%

                                                El Salvador
                                                    9%


          In a study of deceased neurocysticercosis patients in Oregon spanning six
          years, it was determined that 44 of 57 fatalities (77%) occurred in people who
          had been born in Mexico or Guatemala.4 A separate review of autopsies in
          Mexico showed a prevalence of cysticercosis in about three percent of the
          population.5 If three percent of ICE’s detainees from Mexico were infected,
          nearly 5,000 Mexican nationals detained in fiscal year 2007 could be carrying
          the parasite.

          Currently, the standards used by the Office of Federal Detention Trustee
          (OFDT) provide a logical process for the treatment of special needs
          individuals. The Detention Trustee’s definition of special needs individuals
          includes those with communicable diseases. ICE’s standard is less detailed,
          and it should be revised to include individuals who carry the tapeworm that
          can cause cysticercosis. There is also a specific Trustee standard6 that
          requires “appropriate diagnostic testing” be done on detainees with special
          needs.

          ICE also can educate staff at facilities housing detainees to ensure
          understanding of neurocysticercosis. One of the world’s leading experts on
          immigrant health care informed us that neurocysticercosis is “the leading
          cause of seizures” in adults from Mexico and Central America. Another
          expert, who labeled seizures as the “hallmark” symptom of the disease,
          informed us that the Centers for Disease Control developed an “extremely

4
    “Neurocysticercosis in Oregon, 1995-2000.” Emerging Infectious Diseases, March 2004, 508-510.

5
    “Deaths from Cysticercosis, United States,” p. 232. 

6
     B.3.29a 


        ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                   Detention Facilities 

                                         Page 9

  simple” blood test that can reveal whether an individual has the tapeworms
  capable of spreading the disease. The CDC has noted that the blood test may
  not always be accurate, and other more definitive diagnostic tools, such as
  brain imaging, exist. Through expanded educational efforts, as well as greater
  use of available diagnostic tools when deemed appropriate, ICE could
  facilitate faster identification of tapeworm carriers or instances of the disease
  among detainees. This offers a chance to improve treatment of a disease more
  likely found in ICE detainees than in United States citizens.

  Another way ICE could better detect the disease is to ensure that questions
  related to cysticercosis are asked during the initial health assessment and 14-
  day physical exam. A neurologist who has treated neurocysticercosis said an
  entire family should be treated if one individual in a household has the
  disease. Records indicate that facility staff was informed that the detainee’s
  mother had surgery four years before to treat “eggs of bugs inside her head.”
  These comments may appear non-sensical, but they provided a clue that could
  have led to further questioning or diagnostic testing. Adding intake and
  medical screening questions about a family history of the disease would have
  been useful.

  Greater efforts to recognize neurocysticercosis may have expedited the care
  the detainee received. More than a month before the detainee’s death, clinical
  staff was told, “Tylenol or aspirin don’t do anything [to remedy my
  headaches.]” Also, after falling from the bunk bed on April 3, 2006, the
  detainee exhibited general confusion and dizziness. Neurocysticercosis was
  quickly diagnosed after the detainee visited the emergency room.

  The Albuquerque, New Mexico Case

  In 2004, the Regional Correctional Center (RCC) in downtown Albuquerque
  was leased to Cornell Companies, a private correctional firm based in
  Houston, Texas. After making several renovations, Cornell began housing
  ICE and U.S. Marshals detainees at the RCC. The RCC booked 10,026 ICE
  detainees from July 1, 2005 through July 20, 2007.

  The detainee, who died on September 11, 2006, was arrested as a result of an
  ICE operation on the East Coast. The individual, along with 13 others, was
  transferred in August 2006 to the RCC. Records show that the detainee was
  sent to a hospital on September 4, 2006.

  The detainee died of “widely metastatic” pancreatic cancer, which means that
  cells broke away from the original cancerous tumor and spread to other parts
  of the body. This type of cancer makes survival unlikely. A physician with
  25 years of oncology practice said, “I have never seen a tumor marker that

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 10

  high,” after reviewing the detainee’s test results. Hospital clinicians who
  treated the detainee recognized that the disease was at an advanced stage
  before ICE took the detainee into custody. However, medical examinations
  received after the detainee arrived at the RCC did not reveal the illness.

  A Hotline complaint we received, an affidavit from another detainee, and
  unsworn testimony from a former RCC employee, all alleged that the
  facility’s personnel did not address the detainee’s medical issues.
  Specifically, the Hotline complainant believed ICE and RCC staff gave “scant
  attention” to the detainee’s medical needs. However, it appeared that
  Cornell’s clinical staff addressed written medical requests identified in the
  detainee’s records. The detainee received antacid tablets after complaining of
  abdominal pain, so, like the Minnesota case, staff did not immediately
  recognize a more serious condition. Based on documentation from hospital
  staff, we concluded that the RCC’s medical team could not have saved the
  individual’s life, even with quicker onsite treatment or expedited
  transportation to the hospital.

  ICE staff in Albuquerque notified managers at ICE headquarters of this
  incident. ICE contacted the detainee’s family and the consulate of the
  detainee’s country of origin. Local staff also placed a copy of the death
  certificate in the detainee’s file, which is required by ICE standards.

  In certain cases, ICE faces challenges locating family members of detainees.
  This is inherent in the immigration detention process, especially when
  detainees are often transferred across the United States. In this case, the
  detainee’s son, the only family member identified in the case files, was
  attending a university on the East Coast during the detainee’s time in New
  Mexico. This led to difficulties coordinating post mortem activities, such as
  the transfer of remains. The records show that ICE made appropriate efforts
  to communicate with the family. The head of the consulate from the
  detainee’s country of origin thanked ICE for the professionalism exhibited by
  the agency’s staff during the incident.

  Nonetheless, the Hotline complainant, other detainees, and a former RCC
  employee asserted that the RCC was not dealing with some detainee sick call
  requests of in a timely fashion. Based on facility data and a September 2006
  site visit report by OFDT, there is merit to those concerns. OFDT reported
  that, due to a nursing shortage, detainees were often waiting as many as 30
  days for sick call requests to be answered. Additionally, OFDT reported that
  only 11 of 20 detainees with chronic conditions were regularly scheduled for
  chronic care clinics.



ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 11

        This detainee’s death highlighted a limitation in ICE’s detainee death policy.
        New Mexico law requires that any death of a person in the custody of law
        enforcement be reported; however, New Mexico’s Office of the Medical
        Investigator, which should have received this notification, did not have a
        record of the detainee’s death. ICE staff said that the county should have
        reported the death. State officials said that the hospital could have worked
        with ICE to ensure compliance with the state’s requirements. ICE should
        revise the detainee death standard to ensure that the agency and its detention
        partners comply with laws requiring notification to state officials. The
        standard requires the notification of family and the consulate, so adding
        language about state reporting would be suitable. Regardless of who should
        take the lead in contacting the state, ICE needs to ensure that detainee deaths
        are reported to state governments if legally required.

        RCC Site Visit Reports

        ICE’s Office of Professional Responsibility (OPR) visited the RCC in June
        2007. At that time, the facility housed 746 immigration detainees. OPR
        reported a variety of problems, including inadequate suicide watch
        observation, food service, records maintenance, and security procedures.
        OPR considered the RCC’s overall security procedures to be “weak” and “in
        dire need of improvement.” Based on its determinations, including the
        discovery of illegal drugs in the facility, ICE decided to remove all of its RCC
        detainees in early August 2007. We commend ICE for using its own process
        to identify areas of concern at detention facilities.

        Cornell management acknowledged problems at the RCC. A senior manager
        said that a corporate audit team has helped identify and correct deficiencies.
        Based on recent comments by the Chief U.S. District Court Judge in New
        Mexico, the company’s efforts have led to some improvements.7 Cornell said
        that ICE did not fully explain why all immigration detainees were transferred
        to other locations. However, Cornell’s Chief Executive Officer said, “if we
        had operated RCC as we do our best facilities, no one would have had any
        basis for criticism. But we didn’t.”8

        Prior to OPR’s report, evidence existed that showed the RCC was having
        some difficulty in important areas. Within a six-week period in 2006, ICE
        and OFDT completed separate monitoring visits at the RCC. OFDT assigned
        the RCC an at-risk rating in its September 2006 monitoring report. This is the

7
  “Bernalillo County’s Regional Correctional Center conditions improving,” Albuquerque Tribune, 

August 30, 2007, and “Red Flags Raised at Albuquerque’s Downtown Jail,” Albuquerque Tribune, 

September 25, 2007. 

8
  “Jail CEO explains setbacks,” Albuquerque Tribune, August 11, 2007. 


      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                 Detention Facilities 

                                       Page 12

        lowest possible overall rating, two levels below acceptable. ICE granted an
        acceptable rating to the facility after its 2006 site visit. OFDT’s follow-up
        report, based on a February 2007 site visit, determined that RCC’s operations
        were acceptable, which suggested that the RCC made important corrections
        after OFDT’s September 2006 report.

        In September 2006, OFDT reported problems with the RCC’s compliance
        with ICE’s detainee death policy. OFDT concluded that the RCC’s policies
        did not address a requirement to notify the Departments of Justice or
        Homeland Security in the event of detainee death. OFDT also reported that
        the RCC’s policy did not address religious requirements or medical
        circumstances regarding autopsies. Finally, the facility’s policy did not
        address the need to gain the permission from federal agencies to release the
        detainee’s body.

        ICE’s November 2006 RCC report did not mention actual or pending
        revisions to the detainee death policy. Limitations to the detainee death policy
        should have been clearly written in ICE’s report, especially since an RCC
        detainee died less than two months before ICE’s site visit.

        OFDT’s report mentions other problems at the RCC of interest to ICE. In its
        discussion of detainee classification, which pertains to separating individuals
        by severity of their offenses, OFDT identified seven non-criminal ICE
        detainees housed with 136 criminal detainees. Based on a recommendation in
        our December 2006 report, Treatment of Immigration Detainees Housed at
        Immigration and Customs Enforcement Facilities, ICE has taken steps to
        address classification problems at its facilities.9 However, an assistant trustee
        stated that OFDT has detected such problems at other ICE facilities, but there
        are no procedures for sharing report findings with ICE.

        ICE and OFDT have different standards, but some efficiency could be gained
        if ICE engaged the detention trustee on facilities reviewed by both agencies.
        OFDT could inform ICE about issues of interest to ICE, but ICE is not taking
        advantage of this opportunity. No field office reported interaction with OFDT
        on facility monitoring, though OFDT reports mention ICE standards.
        Moreover, the two agencies do not share monitoring reports. The Assistant
        Trustee we interviewed lamented such missed opportunities by saying that
        there is “very minimal” information sharing between ICE and OFDT.

        By developing a better relationship with OFDT, ICE could gain important
        perspectives about its detention facilities. Problems of mutual interest, such

9
 DHS OIG, Treatment of Immigration Detainees Housed at Immigration and Customs Enforcement
Facilities, OIG-07-01, December 2006, p. 48.

     ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                Detention Facilities 

                                      Page 13

     as timeliness of health care delivery, could lead ICE to request more data
     samples, interviews, or policies to ensure compliance. A more developed
     relationship between the two agencies would be helpful, especially in
     situations where OFDT’s standards differ from ICE.

Recommendations
     We recommend that the Assistant Secretary for Immigration and Customs
     Enforcement:

     Recommendation #1: Work with the Office of Inspector General to create a
     policy that would lead to the prompt reporting of all detainee deaths to the
     Office of Inspector General.

     Recommendation #2: Work with the Division of Immigration Health
     Services, the Centers for Disease Control, and other experts, to enhance
     existing medical standards, rules for special needs individuals, and coverage
     guidance related to infectious disease.

     Recommendation #3: Revise medical intake screening forms and physical
     exam questionnaires at detention facilities to include questions regarding the
     detainee’s family history of cysticercosis.

     Recommendation #4: Revise the notification section of ICE’s detainee death
     standard to ensure that the agency and its detention partners report a
     detainee’s death in states that require notification in the event of a death in
     custody. Documentation of this reporting should appear in a detainee’s file.

     Recommendation #5: Seek to enter into a memorandum of understanding
     with the Department of Justice, Office of Federal Detention Trustee that
     establishes a process that enables OFDT and ICE to regularly share
     information resulting from facility site visits.

Management Comments and OIG Analysis
     ICE and the DHS Office of Health Affairs provided written comments on our
     draft report. We evaluated these comments and have made changes where we
     deemed appropriate. Below is a summary of ICE’s written response to the
     report’s first five recommendations and our analysis. A copy of ICE’s
     complete response is included as Appendix B.

     ICE’s Comments to Recommendation #1



   ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                              Detention Facilities 

                                    Page 14

  ICE concurred with our recommendation. A March 13, 2008, memo that was
  created by ICE’s Office of Professional Responsibility outlines the process
  that will ensure OIG notification of each detainee death. ICE will make
  telephone contact with the OIG as quickly as possible after the death. The
  following day, additional details will be provided as part of an existing OIG
  notification mechanism.

  OIG Analysis
  ICE’s new policy should facilitate interaction with our office on detainee
  death cases. As needed, we will use this new process to gain additional
  information about detainee death incidents.

  The recommendation is resolved and closed.

  ICE’s Comments to Recommendation #2
  ICE concurred in part and disagreed in part with our recommendation. ICE
  concurred with the recommendation to work with DIHS and other experts to
  enhance the detention standard for detainee access to medical care. ICE is
  updating all 38 standards and converting them into 41 performance-based
  standards. These revisions are being reviewed by major governmental
  organizations and DHS’ Office for Civil Rights and Civil Liberties. DHS
  expects to publish the revised standards on September 1, 2008.

  ICE stated that the current medical standard allows for special needs
  individuals to receive appropriate medical care. Regarding “medical
  standards,” ICE said it does not have the authority to establish or alter national
  public health or medical health care industry standards, which are established
  by professional medical researchers and medical practitioners in tandem with
  public health and medical care governing and regulatory bodies.

  Although ICE believes the current detention standard is sufficient to meet the
  medical needs of detainees, it believes doctors and medical staff must be
  cognizant of diseases. It has asked DIHS to develop a training tool to enhance
  the medical field’s awareness and early detection of diseases that might be
  prevalent in aliens from particular geographic locales.

  OIG Analysis
  We are not recommending that ICE attempt to expand its authority and role in
  the development of national public health or medical care industry standards.
  However, it is well within the agency’s authority, in consultation with experts,
  to revise its own policies and the medical care standard in the Detention
  Operations Manual. Special needs individuals may be getting adequate care,
  but we reaffirm our recommendation that ICE augment its policy to call more
  attention to those carrying infectious diseases, and help ensure that its medical

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 15

  care better reflects the needs of its population. Possible changes include
  listing particular diseases that make someone a special needs individual, as
  OFDT has done. Diseases that are more common to immigrant populations,
  such as cysticercosis, can be the focus of such efforts. ICE’s decision to ask
  DIHS to develop a tool to enhance the medical field’s awareness and early
  detection of diseases is a positive step, but this tool would be most effective if
  it is accompanied by needed policy enhancements that respect the particular
  needs of ICE’s unique population of detainees.

  DIHS clinicians, who are now ICE employees, are committed to serving
  ICE’s needs. ICE should take a greater interest in discussing possible changes
  to coverage rules for its population. The DHS Office of Health Affairs is
  another resource that can help ICE in these areas.

  ICE’s action plan should include information about its work with DIHS to
  alter policies that increase the probability of expedited treatment for
  individuals with infectious disease. Current coverage guidance does not
  adequately allow for coverage of conditions that do not appear to be medical
  emergencies. Through greater dialog with DIHS and ICE’s departmental
  partners, the chances for improved health care outcomes will increase.

  This recommendation is unresolved and open.

  ICE’s Comments to Recommendation #3
  ICE concurred in part and disagreed in part with our recommendation. ICE
  agrees that DIHS should review its medical intake and physical exam forms,
  presumably to assess whether the forms can be modified to allow for more
  accurate and timely identification of certain diseases. ICE stated that present
  health screening tools include questions concerning family history. The
  agency stated that there is sufficient space on the forms to record any
  information provided to alert medical professionals of any possible problems
  that are not readily apparent. ICE’s current intake form is based largely on
  questions that are not only related to family history of various diseases, but
  symptoms that may lead medical professionals to diagnose an illness. Given
  its large, diverse detainee population, it is not clear to ICE whether a specific
  designation of family history of cysticercosis is warranted on medical intake
  forms or that amending the form is the most appropriate manner to respond to
  this particular disease. Furthermore, ICE questioned the OIG’s conclusions
  regarding the scope and danger of cysticercosis. It stressed that the disease is
  still quite rare, even after the large increase in Latin American immigrants
  over the last 30 years. ICE reported that technological improvements, not a
  prevalence of cysticercosis, led to increased detection of the disease.



ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 16

  ICE noted that DIHS’ commitment to enhance the medical field’s awareness
  and early detection of diseases that might be prevalent in aliens from
  particular geographic locales is a major step forward. ICE believes the best
  approach to address our concerns about cysticercosis or infectious diseases is
  to request that DIHS reevaluate the current medical form in order to determine
  whether amending these forms is appropriate.

  OIG Analysis
  ICE questioned the value of incorporating any family history of cysticercosis
  on forms currently in use, but also agreed that DIHS should review its medical
  intake forms and physical exam forms in order to better identify certain
  diseases. ICE will request that DIHS review current medical forms in order to
  determine whether amending these forms is appropriate. ICE did not indicate
  how it would respond to a decision by DIHS to amend the forms, whether it
  would revise any forms, or how such changes would be communicated to
  local facilities, which often use their own screening forms. ICE should
  provide documentation of its request, and the results of DIHS’ evaluation.

  We do not expect ICE to make cysticercosis the focus of its health care
  program. However, the disease, rare even in ICE’s population, is a far greater
  risk to immigrants from Latin America than the general population, and
  amending intake screening and physical exam forms is a step ICE can take to
  help detect the disease.




ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 17

  Greater awareness and detection of the disease might not decrease morbidity
  or mortality in a specific case, but this is not a reason to omit specific
  language related to cysticercosis on intake and physical exam forms. The
  disproportionate risk of cysticercosis in ICE’s population is not “anecdotal,”
  as ICE notes, but rather a well-documented fact, based on decades of research
  by highly credible public health and medical experts. ICE should do more to
  respect this risk and take steps to mitigate it through the possibility of quicker
  detection and treatment for detainees carrying the disease.

  Because cysticercosis remains rare, clinicians in various parts of the country
  may have limited experience with diagnosis, as was evident in the Minnesota
  case. No information in Ramsey County’s treatment protocols, ICE’s medical
  standard, or the DIHS covered services package could help a facility diagnose
  or proactively treat the disease, even though it is a disproportionate risk to the
  bulk of ICE’s detainees. ICE can help its detention partners by providing
  more details about the disease as well as enhanced means for facilities to
  detect infected detainees.

  This recommendation is unresolved and open.

  ICE’s Comments to Recommendation #4
  ICE did not concur with our recommendation. ICE believes that its standards
  are appropriate in this area. The agency stated that a medical examiner, a
  hospital, or a physician, is responsible for implementing any state notification
  requirement. In the New Mexico case, ICE noted that any rule of its own
  would not have facilitated action by state or local entities to make notification
  to the proper authority.

  OIG Analysis
  We reaffirm our recommendation. ICE acknowledged the importance of state
  notification, but believes it is not its responsibility to do so. ICE can rely on
  other entities to ensure state notification. However, ICE’s standard currently
  does not mention reporting detainee deaths to states. Although other officials
  or a hospital can help satisfy the requirement, the detainee is ICE’s
  responsibility. It is possible that some hospitals or medical examiners may
  not realize that ICE is a law enforcement agency. ICE is not prohibited from
  proactively ensuring that detainee death notification occurs, especially since
  the agency’s standards require staff to comply with state rules on infectious
  disease reporting and other areas. ICE could take the step of articulating the
  importance of death notification. This would also provide ICE an additional
  opportunity to collaborate with states.

  This recommendation is unresolved and open.

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 18

            ICE’s Comments to Recommendation #5
            ICE concurred with our recommendation. The agency is pursuing a
            Memorandum of Understanding with OFDT. ICE also provided details on its
            work with OFDT, as well as efforts to improve the compliance at the Regional
            Correctional Center. ICE stated that our recommendation was incorrectly
            based on a perception that OFDT provided information that led to ICE’s
            decision to remove detainees from the facility. ICE stressed that it relied on
            its own standards, rather than input from OFDT, in the decision to remove all
            immigration detainees from the RCC.

            OIG Analysis
            Our recommendation is not based on a belief that OFDT has better standards.
            We reported that OPR findings led to the removal of ICE’s RCC detainees.
            The purpose for this recommendation was that OFDT had indentified medical
            access problems that ICE did not. Without knowing about these problems,
            ICE admitted nearly 3,500 detainees to the RCC. Through greater interaction
            with OFDT, the two agencies can facilitate improvements across federal
            detention facilities. A formalized partnership, along with the improvements
            that ICE is making, can facilitate higher levels of compliance at facilities.
            When the final MOU is completed, ICE should forward the document to the
            OIG. We could close this recommendation at that time.

            This recommendation is resolved and open.

Oversight Can Be Improved at ICE Detention Facilities

            ICE conducts annual monitoring visits to determine a facility’s compliance
            with the detention standards. Staff conducting routine oversight of facilities
            has not been effective in identifying certain serious problems at facilities.
            Moreover, ICE’s reports, based mainly on checklists that divulge little about
            the area reviewed, do not provide much information to facilities or outside
            reviewers. In December 2006 we reported that ICE did not find medical
            access problems and other non-compliance at detention facilities. Although
            ICE is taking steps to improve facility oversight, the agency should revise
            certain policies and standards to gain a more complete understanding of
            facilities’ compliance status. By improving its oversight methodology, ICE
            will improve both standards compliance and detainee safety.

            An Overview of ICE’s Detention Facility Monitoring Efforts

            Each facility housing ICE detainees is scheduled to receive an annual
            monitoring visit. Site visit teams use various worksheets to report on a


          ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                     Detention Facilities 

                                           Page 19

  facility’s adherence to ICE’s standards. For contract detention facilities and
  service processing centers, a team from ICE headquarters leads the site visits.
  Field office staff is charged with monitoring of facilities that house detainees
  under an intergovernmental service agreement. Reviews usually take three or
  four days to complete.

  Within 14 days of completing a facility review, the team submits a report to
  ICE’s Detention Standards Compliance Unit. The unit examines the report for
  completeness and the soundness of the team’s conclusions. This leads to a
  rating of the facility’s performance against general areas of the standards, such
  as food service, the detainee handbook, and detainee access to medical care.
  If the review team determines that there is a deficiency in a particular area, the
  facility is required to undertake corrective action. After review of the report
  by headquarters staff, the facility also receives one of five overall ratings:




       •	 Superior – The facility exceeds expectations based on exceptional
          performance and excellent internal controls.
       •	 Good – The facility performs all of its functions with few deficient
          procedures.
       •	 Acceptable – The facility’s detention functions are performed
          adequately. ICE considers this level the baseline for its facility
          rating system.
       •	 Deficient – The facility is not performing one or more detention
          functions, with inadequate internal controls.
       •	 At Risk – The facility’s detention operations are impaired to the
          point where mission performance is not being accomplished.


  ICE is strengthening its oversight of detention facilities. A manager in ICE’s
  Office of Professional Responsibility informed us that a new unit, the
  Detention Facilities Inspections Group, will focus on standards compliance at
  detention facilities. The group will also conduct independent reviews of
  certain incidents at detention facilities. At the time of our fieldwork, only six
  employees were assigned to the new group, with projections for 12 additional

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 20

  staff members. ICE officials asserted that the Detention Facilities Inspections
  Group is a “high priority.” The group must have sufficient resources to
  inspect detention facilities. Figure 3 highlights the placement of ICE’s
  detention facility monitoring units in the agency’s organizational structure.

      Figure 3: Excerpt of ICE Organizational Chart Showing Detention Facility

                                  Monitoring Units

                                              IC E A s s is ta n t
                                                S e c r e ta r y

                         O ffic e o f
                      P r o fe s s io n a l
                     R e s p o n s ib ility                          O p e r a tio n s
                                                                       D e p u ty
                        D e te n tio n                                A s s is ta n t
                        F a c ilitie s                                S e c r e ta r y
                       In s p e c tio n
                          G ro u p                                             D e te n tio n a n d
                                                                                  R em oval
                                                                                 O p e r a tio n s

                                                                                  D e te n tio n
                                                                                  S ta n d a r d s
                                                                                 C o m p lia n c e
                                                                                      U n it

                                                                                   S ite V is it
                                                                                    Team s



  OPR participated in an ICE site visit after a March 2006 detainee death in
  Texas. According to the review, which took place less than a week after that
  incident, serious issues compromised detainee safety. A subsequent report
  concluded that the facility “has experienced a complete breakdown in
  communication, leadership, and supervision,” prompting difficulties “on every
  level.” ICE no longer uses the facility to house detainees.

  ICE is also in the process of contracting with outside experts to relieve ICE
  staff of the annual onsite facility monitoring function. This new process is
  now in place. ICE management believes that this new approach will be
  similar to how OFDT implements its monitoring visits. ICE’s contractor will
  use existing ICE monitoring instruments and protocols.

  Better Review of Medical Exam Timeliness is Needed

  ICE’s medical care detention standards require facilities to conduct a health
  appraisal and physical examination on each detainee within 14 days of the
  detainee’s arrival at the facility. This exam is designed to gather details about
  a detainee’s health beyond the screening questions asked during the intake
  process. The physical examination offers an important opportunity to gauge
  the health status of detainees. Timely delivery of the physical exam enhances
  a facility’s identification and treatment of communicable or chronic illnesses.



ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 21

  We examined data on the timeliness of the 14-day exam from the Regional
  Correctional Center and the Ramsey County Law Enforcement Center.
  Because it had a considerably larger number of detainee intakes, we only
  requested three months of data from the RCC, April through June 2007.
  Ramsey County provided timeliness data for all detainees entering the facility
  for the first six months of 2007. Both facilities had difficulty meeting ICE’s
  physical exam timeliness standard. Officials at various detention facilities
  reported that staffing shortages, overworked clinicians, or an excessive facility
  intake can cause delays in delivery of this service.

  There were 1,118 new ICE detainees booked at the RCC during our three-
  month sample. Of these, 997 stayed longer than 14 days. We determined that
  830 of the 997, or 83%, received a timely physical exam and 167, or 17%, did
  not. During its September 2006 monitoring visit, OFDT determined that the
  RCC met the 14-day standard in 18 of 20 cases, a 90% rate.

  For the Ramsey County facility, only 43 ICE detainees admitted in the first 6
  months of 2007 were housed for more than 14 days. Of the 43 detainees, 10,
  or 23%, had information regarding a physical exam in their medical file.
  Those with a completed physical often received the exam beyond 14 days.
  Table 1 lists the 10 detainees who had medical exam information documented
  in their file. In 3 of the 10 cases, no physical exam had been provided. For
  the seven cases with an exam date, an average of 40 days elapsed between the
  detainees’ intake and the exam.
     Table 1. Ten Cases from the Physical Exam Timeliness Sample, Ramsey

                         County Law Enforcement Center 

                 Intake date Exam date      Days Elapsed Days Detained
   Detainee #1   3/26/2007    3/27/2007           1             23
   Detainee #2   3/29/2007    5/14/2007          46             94
   Detainee #3   4/16/2007    6/18/2007          63             76
   Detainee #4   4/16/2007    6/18/2007          63             76
   Detainee #5   5/4/2007     5/22/2007          18             58
   Detainee #6   5/4/2007     7/16/2007          73          Unknown
   Detainee #7   5/15/2007    No exam            NA             47
   Detainee #8   6/4/2007     No exam            NA             27
   Detainee #9   6/11/2007    6/28/2007          17             20
   Detainee #10 6/12/2007     No exam            NA             16

  The data provided by Ramsey County showed additional problems with
  timely tuberculosis screening. One element in ICE’s monitoring protocol asks
  if the facility has ever needed more than one business day to conduct this
  screening test. For the 43 individuals in our sample, only 14 cases showed a
  date for the initial skin test used to detect tuberculosis. Ten of these detainees
  were not given a test within one business day. In one of these cases, the
  facility did not test a detainee for more than two months.

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 22

        ICE monitoring reports contained limited evidence that staff conducting site
        visits actually reviewed facility compliance with the 14-day exam standard.
        We concluded that sampling is not done on a consistent basis. A manager in
        ICE headquarters said that sampling is discussed during reviewer training, but
        ICE’s monitoring protocols do not require sampling to test a facility’s
        compliance. ICE should examine sample data during each of its monitoring
        visits to test compliance with the 14-day exam and other standards.

        Our December 2006 report on detainee treatment discussed problems with the
        14-day exam standard at two facilities. The Berks County Prison was
        compliant on only 38 of 42 sample cases, while an ICE facility in San Diego
        met the standard in only eight of 19 cases. Two other facilities met the
        standard in all 50 cases examined.10 Using sampling to gain a better
        understanding of a facility’s compliance level would be a valuable measure of
        how well detainees receive services designed to improve health outcomes.

        Since compliance can fluctuate over time, ICE needs to ensure that facilities
        continuously comply with detention standards. Although we are not
        recommending regular reporting by facilities, such information could be
        helpful to discern the ability of a particular location to house more detainees.
        ICE should also take larger and more frequent samples of other medical
        standards at those facilities that have exhibited problems. Developing
        sampling guidance in other areas would benefit ICE’s monitoring program.

        ICE Can Improve Detention Facility Monitoring Reports

        Questions regarding the materiality of findings are undermining the quality
        and usefulness of ICE’s monitoring reports. Current policy emphasizes that
        the materiality of a finding is based on the reviewer’s analysis of available
        evidence, extent of the problem, risk to the program’s efficient and effective
        management, review objectives and any other factors. This is a credible
        approach, but additional policy is needed to ensure ICE reviewers, who must
        determine whether a facility’s performance warrants deficient ratings, target
        areas of particular importance. Improvements in this area would also make a
        facility’s final rating more objective.

        In some monitoring reports, reviewers deemed the facility’s performance on
        certain elements acceptable, despite identifying notable deficiencies. For
        example, the November 2006 report for Ramsey County said the facility did
        not abide by ICE’s standards on tuberculosis screening. Screening for

10
  DHS OIG, Treatment of Immigration Detainees Housed at Immigration and Customs Enforcement
Facilities, OIG-07-01, December 2006, pp. 3-4.

      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                 Detention Facilities 

                                       Page 23

  tuberculosis is central to the safety of facility staff and other detainees.
  Compliance in this area should be a leading factor in a facility’s overall rating
  in the access to medical care area. However, the facility received an
  acceptable rating for that general standard.

  In its September 2006 report, OFDT raised concerns about the ability of the
  RCC’s medical unit to provide timely care with the number of clinicians on
  staff. ICE’s November 2006 report, on the other hand, simply gave a “yes”
  answer, with no other comment, for the standard requiring all detainees have
  access to and receive medical care. Had ICE been aware of the health care
  access problems at the RCC, it might have considered different locations for
  some of the 3,465 detainees who entered the facility from January through
  July 2007.

  There were some questionable conclusions in ICE’s November 2006 RCC
  monitoring report. For several elements, no examples of a particular event
  were evident, yet ICE concluded that the RCC met the standard. For such
  situations, it would be more accurate to conclude that a particular element was
  not applicable. ICE reported that the facility met other requirements, even
  though reviewer comments suggested otherwise. For example, the RCC did
  not have certain emergency plans, but the report concluded that the RCC met
  the requirement for such plans. Also, ICE reported that the RCC met the
  standard requiring storage of medical records in a locked area, even though
  the reviewers found one cabinet unlocked. Although corrective action was
  immediate, the issue was serious enough to warrant a finding that the RCC did
  not meet the standard.

  ICE drew questionable conclusions in monitoring reports of other facilities.
  One report listed several deficiencies regarding a facility’s medical treatment,
  even though ICE granted an acceptable rating in this area, including:

      •	 Absence of intake tuberculosis screening;
      •	 Absence of privacy blinds in exam rooms;
      •	 Insufficient oversight to ensure medical records were always secured;
      •	 The need to update certain policies, including 24-hour access to
         emergency services; and,
      •	 Improvements needed to policies related to special needs individuals.

  Another ICE monitoring report graded a facility’s security inspections
  acceptable, while noting the need for improvement in a non-compliant visitor
  pass system, the absence of documentation showing vehicles entering or
  departing secured areas, and incomplete vehicle searches. With such
  information, we have determined that the facility was deficient in this area.


ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 24

  Further explanation of these problems in an expanded narrative section in the
  report would have been beneficial.

  In comparing overall ratings given to facilities, changes are also needed to
  explain why particular facilities receive a given rating. Some field offices
  perceive the final rating process used by ICE headquarters as arbitrary. The
  Ramsey County Law Enforcement Center received a good rating in 2005, but
  only acceptable in 2006. The later report did not explain why the compliance
  status fell one level. In another example, in June 2006, one facility with
  uncorrected problems with staff-detainee communication still received a good
  rating. Another facility without any notable deficiencies only received a
  rating of acceptable. After reviewing the reports, we could not determine the
  justification for the second facility receiving a lower rating.

  Enhancements to site visit reports would permit a better understanding of a
  facility’s particular rating. In most of the reports we examined, the review
  team did not make use of the Remarks section found after each general
  standard. The narratives that appear in OFDT reports offer a more detailed
  assessment of a facility’s compliance status. This is especially important in
  instances where a facility could use more guidance.

  An ICE Standard on Internal Review at Facilities Would be Beneficial

  ICE currently does not have a requirement that facilities perform assessments
  of their operations. Through review of its own operations, a facility could
  more quickly discover problems, such as untimely access to health care.
  Developing a standard in this area would help ensure that facilities achieve
  and maintain compliance improvements.

  Both ACA and OFDT have standards that address the need for facilities to
  review their operations continually. ACA’s policy on Health Care Internal
  Review and Quality Assurance establishes the collecting, trending, and
  analyzing of data as a central feature of a successful review program. On-site
  monitoring of health service outcomes on a regular basis is the central
  component of ACA’s standard. According to OFDT’s policy, a facility’s
  internal review process is separate from external or continuous inspections or
  reviews conducted by other agencies. These standards for internal review
  could guide ICE’s development of its own standard in this area.

  Notable problems at one facility demonstrate the utility of self assessments.
  In March 2006, the facility received a deficient rating based on non-
  compliance in 11 of the 38 detention standards. Later that year, two detainees
  died at the facility. ICE’s reviews of these two incidents discussed serious
  problems with access to medical care and the oversight of clinical operations.

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 25

           ICE reported that the facility did not perform basic supervision and provide
           for the safety and welfare of ICE detainees. Had the facility reviewed its own
           operations, it might have uncovered issues related to insufficient medical
           staffing, problems with staff training, or other deficiencies. ICE discovered
           these issues only after two detainees died. ICE’s March 2007 monitoring
           review at the facility noted that five detainee deaths had occurred in the
           previous calendar year.

           Two recent monitoring reports of another facility highlight the importance of
           ongoing detention facility oversight. In August 2006, ICE granted a superior
           rating to one facility after a routine monitoring visit. After the November
           death of a detainee, ICE identified a variety of problems related to this
           facility’s medical care. The review team noted that the facility does not
           routinely do physical examinations on detainees who are in the facility more
           than 14 days. Additionally, ICE’s review team concluded that the facility has
           failed on multiple levels to perform basic supervision and provide for the
           safety and welfare of ICE detainees. Further, the line of communication in the
           medical department at this facility was deemed to be poor, placing detainee
           health care in jeopardy.

           Maintaining a complete and current picture of its facilities’ clinical operations
           should become a priority for ICE and its detention partners. Detecting
           deficiencies before problems arise is vital to detainee protection and standards
           compliance. As one correctional expert wrote, “Delayed or inadequate
           treatment of persons with medical conditions often results in liability exposure
           and publicity.”11 Investments in internal reviews can diminish such negative
           effects through continual corrective action by the facility itself, outside of
           ICE’s regular monitoring process.

Recommendations
           We recommend that the Assistant Secretary for Immigration and Customs
           Enforcement:

           Recommendation #6: Revise monitoring protocols and the medical
           detention standard to require sampling and continuous oversight of the 14-day
           physical exam standard across ICE’s detention facilities.

           Recommendation #7: Revise monitoring policies and other guidance given
           to reviewers regarding the materiality of site visit report findings to ensure
           that standards, such as tuberculosis screening and others related to access to
           medical care, weigh more heavily on a facility’s compliance level.

11
     Clinical Practice in Correctional Medicine, 2nd ed., 2006, p. 42.

        ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                   Detention Facilities 

                                         Page 26

     Recommendation #8: Require reviewers preparing monitoring reports to use
     narratives to illuminate special areas of concern and provide additional details
     about issues relevant to a facility’s compliance status.

     Recommendation #9: Develop a standard that requires facilities housing ICE
     detainees to implement an internal review function.

Management Comments and OIG Analysis

     ICE’s Comments to Recommendation #6
     ICE concurred with our recommendation. The agency will use three steps to
     improve oversight of the 14-day physical exam standard.
        •	 Regular sampling by on-site clinical staff and remote sampling for
           facilities served by a regional contractor.
        •	 Findings of OPR’s Detention Facility Inspection Group inspections
           through its facility oversight role, and
        •	 Detention and Removal Operations will provide OPR information on
           this recommendation during Self Inspection Program reporting.

     OIG Analysis
     In its action plan, ICE should provide sufficient evidence of the policy
     revisions and site visit reports, showing that the required sampling is taking
     place to satisfy the intent of this recommendation.

     This recommendation is resolved and open.

     ICE’s Comments to Recommendation #7
     ICE concurred with our recommendation, noting that findings with significant
     consequences are weighed more heavily in a facility’s overall compliance
     rating. ICE’s pending performance-based standards will improve the accuracy
     and credibility of performance ratings. ICE also relies on immediate
     correction of serious life and safety issues found during monitoring visits.

     OIG Analysis
     Our recommendation focused on the scoring of particular elements in a way
     that inaccurately reported a facility’s actual status. Examples in our report
     showed facilities with obvious medical access problems still scoring at an
     acceptable level for that specific element. In its action plan, ICE should
     provide more detailed policy guidance and examples of site visit reports to
     demonstrate that both overall and specific elements are more accurately
     graded during the monitoring process. Upon doing so, we will close this
     recommendation.


   ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                              Detention Facilities 

                                    Page 27

  This recommendation is resolved and open.

  ICE’s Comments to Recommendation #8
  ICE concurred with our recommendation. As a result of improvements made
  in late 2007, ICE is expanding the use of narratives in its site visit reports.
  This new process, which uses contracted experts in facility oversight, will lead
  to greater use of narratives to expound on areas of concern. Such additional
  information can clarify findings and enhance a facility’s ability to comply
  with necessary standards.

  OIG Analysis
  ICE has taken positive steps in this area, as it now uses the narrative field in
  its monitoring reports. We will close this recommendation on receipt of a
  copy of an inspection that demonstrates the use of the report’s narrative
  feature.

  This recommendation is resolved and open.


  ICE’s Comments to Recommendation #9
  ICE concurred with the premise of our recommendation, but did not concur
  with the need to create a standard on facility self-assessments. ICE is
  concerned that a self-assessment policy could diminish the consistent
  implementation of its national standards. The agency noted that it uses quality
  assurance experts at large facilities to help ensure local compliance in key
  areas. ICE believes that the participation of third party experts is necessary
  for local conditions to be monitored appropriately. In addition, ICE relies on
  its own monitoring practices to examine the compliance of facilities housing
  immigration detainees.

  OIG Analysis
  We reaffirm our recommendation that ICE develop a facility self-assessment
  policy. The agency’s response states, “We concur that there needs to be a
  sound internal review mechanism, but we disagree to the extent that the
  review process should be conducted by facility personnel.” In the health care
  compliance field, self-assessments are performed by a facility’s own staff.
  ICE’s regular site visit monitoring process and internal review are different
  concepts, to be performed by different individuals. What we are
  recommending in no way replaces those reviews. The Health Care
  Compliance Association notes that internal reviews “test compliance with
  internal policies and procedures and with federal, state, and local laws
  regulations and rules.” These programs are “often critical” in finding a
  problem before “it creates significant risk to the organization.” A facility can

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 28

             use a self assessment to measure current compliance, ensure correction of
             deficiencies, or confirm ongoing compliance. Clinical staff at a local facility
             has the expertise to determine whether rules on the timeliness of physical
             exams and screenings have been met. Many standards do not require
             interpretation or the intervention of outside experts. Thus, ICE should not be
             concerned that self assessments are contrary to national consistency. It is also
             important to note that an internal review need not place exorbitant demands on
             detention facilities. For example, after receiving data from Ramsey County
             and Cornell, we quickly judged the facilities’ timeliness in providing physical
             exams and tuberculosis screening, two areas central to a facility’s medical
             care access.

             ICE’s quality assurance experts are not used in most local facilities. ICE
             should help facilities use their own processes to ensure basic standards are met
             on an ongoing basis – outside of the routine monitoring processes. Onsite
             experts or ICE site visits do not provide this level of ongoing assessment.
             Since ICE endeavors to follow ACA standards, it should create a facility self
             assessment standard to match the mandatory nature of ACA’s guidance in this
             area, which has existed since 2004.

             This recommendation is unresolved and open.

Additional Efficiencies in Medical Operations Can Enhance
Implementation of ICE’s Detention Standards
             ICE can develop a more efficient and productive oversight process for its
             detention facilities and enhance the standards that are appropriate and
             generally equivalent to the standards of ACA and OFDT. Further steps, such
             as the creation of electronic health records and increased staffing of clinical
             operations, offer additional means for ICE to strengthen standards compliance
             and improve detainee care.

             ICE’s Standards Are Credible Compared to Other Organizations

             Our analysis of several ICE detention standards, compared to the ACA and
             OFDT standards, is provided in Appendix E. In some instances, ICE’s
             standards are more detailed than those of ACA and OFDT. For example, a
             recent article noted that ICE’s standard on hunger strikes provides important
             details that are missing from similar ACA standards.12 We found that ICE’s
             standard on HIV/AIDS offers more specific guidance to facilities, as well.
             ICE requires that only a licensed physician will make a diagnosis of AIDS

     12
       “What They Can Do About It: Prison Administrators’ Authority to Force-Feed Hunger-Striking
     Inmates,” 24 Washington University Journal of Law and Policy 151 (2007).

           ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                      Detention Facilities 

                                            Page 29

  based on a medical history, current clinical evaluation of signs and symptoms,
  and laboratory studies. ICE also identifies procedures for treating the detainee
  within and outside the facility’s clinic. Staff responsibilities and precautions
  are also outlined. ACA’s standard specifies only that the detention facility
  will have a written plan that addresses the management of HIV infection and
  procedures for dealing with the detainee. Specific procedures for treatment
  and staff responsibility are not developed. OFDT’s standard simply classifies
  HIV as a chronic medical condition, requiring regular treatment.

  Additionally, the ICE standard on detainee grievances has important details
  that are not discussed by ACA or OFDT. The ICE standard specifies a formal
  and informal procedure for resolving detainee grievances. In the formal
  process, the detainee completes a form that discusses in writing the particular
  issue of concern. An informal grievance is delivered orally, offering detainees
  the opportunity to resolve their concerns before resorting to the longer formal
  procedure. Detainees can communicate their informal grievances to ICE staff,
  and all grievances can be appealed. OFDT’s process is similar to that of ICE,
  although an informal process is not developed. Based on ICE data, no
  grievances were filed by the 33 detainees who died between January 1, 2005
  and May 31, 2007.

  ICE, ACA, and OFDT understand the importance of identifying detainees
  with special medical needs. However, the three entities have different
  definitions of a special needs individual. According to ICE’s standard in this
  area, the facility’s officer in charge will be notified when detainees are
  diagnosed with special needs. OFDT echoes this point, but it gives more
  specific examples of types of conditions that affect individuals with special
  needs. Additionally, OFDT requires additional health care for detainees
  diagnosed with special needs.

  The ABA has encouraged ICE to make the agency’s detention standards
  enforceable through regulation. The ABA contends that, even though
  intergovernmental services agreements require compliance with standards, the
  standards currently in place are only advice to facilities on ensuring detainee
  welfare. There may be merit to creation of a regulatory mechanism to enforce
  ICE’s standards. We are not persuaded by the department’s memorandum in
  reply to the ABA, which discussed problems this course would create, such as
  staffing issues and the cumbersome regulatory update process. However, ICE
  is considering the feasibility of making the standards regulatory.

  ICE has already taken some steps to enhance its standards. The agency is
  moving toward the creation of performance-based standards similar to those
  used by ACA and OFDT. These standards provide an opportunity to
  articulate more clearly the specific actions that facilities are expected to take.

ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 30

          Performance-based standards are goal-oriented and include outcomes
          measures, which can provide facilities with guidance on the implementation.
          This should bring about improvements in facilities’ adherence to specific
          goals. Improvements to ICE’s facility monitoring process should be enhanced
          when the updated standards are finalized.

          Electronic Medical Records Would Create Efficiencies for ICE

          We reviewed the utility of electronic health records (EHRs) for ICE’s
          detention facilities. EHRs digitally store individual health information, either
          in a transferable card or a centralized database. ICE and its facilities currently
          rely on traditional paper-based medical records. However, ICE, including its
          Division of Immigration Health Services (DIHS), has taken preliminary steps
          toward electronic records, including development of systems requirements.
          ICE has spent more than $2.2 million on the development of an electronic
          records system, including software and training expenses. DIHS determined
          this initial systems design was less than sufficient. ICE has noted its interest
          in making improvements on its initial system.

          Efficiencies created by EHRs would provide ICE many advantages in the
          management of detainee care, especially when detainees are transferred to
          other facilities. For example, EHRs can be easily transmitted. An
          individual’s records would be immediately available to clinical staff at a new
          detention facility. This would allow for a more rapid assessment of a
          detainee’s current medical needs, reduce duplication of intake screenings or
          physical exams, and improve detainee safety. By expediting the development
          of EHRs, ICE and its detainees would receive long-term benefits.

          The Veterans Health Information Systems and Technology Architecture
          enabled the Department of Veterans Affairs (VA) to create EHRs for
          individuals receiving care at VA hospitals and clinics. The VA’s EHRs
          provide patient-specific information that permits time and context sensitive
          clinical decision-making. The VA has achieved important safety
          improvements through its use of electronic information. For example,
          electronic prescriptions have reduced medication errors and helped to identify
          incompatible medications. The VA has reported a medication error rate of
          0.003%, well below the three to eight percent national average.13

          ICE facilities managed by the Correctional Corporation of America use EHRs.
          When an ICE detainee is transferred between facilities managed by the
          company, clinical staff can access an electronic records system. One of the
          company’s facility wardens said that less paperwork and more timely

13
     “The Best Medical Care in the U.S.,” Business Week, July 17, 2006.

        ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                   Detention Facilities 

                                         Page 31

        information about detainees has improved operations at the company’s
        detention facilities. An ICE review of a Houston detainee’s suicide provides
        an example of how rapid access to health records can be vital. According to
        the incident report:

             A major area of concern was a lack of medical records . . .
             Following the death, the detainee’s health records from his
             previous institution revealed the detainee had been diagnosed
             and treated for Schizophrenia and had at least one
             documented suicide attempt . . . Such information would have
             been valuable to the mental health provider and medical staff
             at Houston.


        Although the individual was transferred from a Bureau of Prisons facility to
        Houston, rather than from another ICE facility, the report provides keen
        insight into the utility of EHRs.

        Additionally, EHRs would not be subject to disruption or destruction. This
        was especially important to the VA during Hurricane Katrina, when clinicians
        around the country had electronic access to records of the 40,000 veterans
        who had received care or ordered prescriptions at VA facilities in Louisiana
        and Mississippi. A 2007 study by the State of California also discussed how
        EHRs could ensure the maintenance of medical records during natural
        disasters or other catastrophic events.14

        ICE and DIHS have recently taken steps to create a system of electronic
        health records. An ICE official suggested that more detailed discussions are
        needed to define systems requirements, and ICE needs to understand DIHS’s
        perspective on the limitations of the electronic records system. The proposed
        integration of DIHS into ICE should enhance progress toward development of
        EHRs for ICE detainees. This integration is anticipated in early FY 2008.

        ICE is a natural candidate for implementation of EHRs. By enhancing the
        efficiency of clinical operations, ICE would provide better care for its
        detainees. We recognize that complicated systems decisions are necessary
        before an effective electronic records system can be fully implemented,
        including concerns about the privacy of electronic records. Thus, ICE should
        consult outside experts, such as the VA, as needed.


14
   The State of California, Legislative Analyst’s Office, “A State Policy Approach: Promoting Health
Information Technology in California,” February 2007.
http://www.lao.ca.gov/2007/health_info_tech/health_info_tech_021307.aspx

      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                 Detention Facilities 

                                       Page 32

           Some ICE Facilities Are Experiencing Clinical Staffing Problems

           Two ICE facilities included in our review have staffing problems, raising
           concerns about not only the slow pace of hiring, but the agency’s ability to
           provide proper health care. DIHS personnel said that they need a better
           understanding of ICE’s vision for detention services. They said that
           understanding the vision would help determine where additional or new
           personnel resources should be placed.

           Nationally, contract detention facilities and service processing centers using
           Public Health Service clinicians had a 36% vacancy rate in October 2007.
           The contract detention facility in Pearsall, Texas, which housed more than
           1,500 detainees the day we visited, had 22 medical staff vacancies. Given its
           rural location and the nation’s high demand for nurses, staff in Pearsall said
           that they will endure medical staff shortages indefinitely.

           Staff from the San Diego Field Office also expressed concern about recruiting
           and retaining clinical staff for its contract detention facility. In its December
           2006 ICE site visit report, the facility earned an overall rating of deficient
           after receiving a good rating in 2005. Health care access problems caused by
           insufficient medical staff were a primary reason for the low level of
           performance. According to the site visit report, nearly 260 detainees did not
           receive a physical examination during a three-month period in 2006. Field
           office staff suggested that DHS’ lengthy security clearance process is an
           obstacle to filling vacant medical staff positions. To offset not having
           sufficient medical staff, the current staff work extended hours in an attempt to
           improve compliance with ICE’s medical standards. ICE did provide data
           showing that recent progress has been made on the issue of clearance
           processing, but the general concerns expressed by staff in Pearsall and
           elsewhere warrant further scrutiny by ICE management.

           Immigration attorneys we interviewed said that their primary concern is ICE’s
           ability to deliver timely health services. In June 2007, the American Civil
           Liberties Union filed a class action suit against ICE as a result of problems at
           the San Diego Detention Center. Agencies can be exposed to legal liability if
           medical standards are not properly implemented. As one expert wrote, “Most
           cases in which courts have found constitutional violations of inmates’ rights to
           health care were fostered by the exigencies of an overburdened staff coping
           with too few resources.”15 Even in those areas where ICE has a credible
           treatment standard, such as care for detainees with AIDS, other organizations
           have determined that medical care can be inadequate. A human rights group
           recently alleged several examples of problems with ICE’s treatment of

15
     Clinical Practice in Correctional Medicine, 2nd ed., 2006, p. 524.

         ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                    Detention Facilities 

                                          Page 33

        detained individuals with AIDS. This group’s report detailed cases where
        detainees were denied medications or where needed care was delayed.16 We
        did not review any of these cases for this report.

        We discussed various medical access issues with Public Health Service
        clinicians, who provide care at some of ICE’s facilities, and officials from
        DIHS headquarters. Some DIHS officials believe that greater involvement in
        ICE’s detention management strategic planning would help with staffing
        problems. This would give DIHS a better idea of where clinical staff would
        be needed. Although our interviewees described the relationship between ICE
        and DIHS as very positive, ICE should ensure that clinical staffing efforts are
        aligned with ICE’s strategic planning for detention management.

Recommendations
        We recommend that the Assistant Secretary for Immigration and Customs
        Enforcement:

        Recommendation #10: Expedite all necessary discussions and resources to
        develop a system of electronic health records for ICE detainees.

        Recommendation #11: Work with the Division of Immigration Health
        Services to identify all clinical staff shortages, then work with ICE’s clinical
        partners to develop and implement a strategy to fill clinical staff shortages at
        immigration detention facilities.

Management Comments and OIG Analysis
        ICE’s Comments to Recommendation #10
        ICE concurred with our recommendation. The agency continues to work with
        DIHS and other experts to create the electronic records system. The
        department’s Investment Review Board must approve the system.

        OIG Analysis
        In its corrective action plan, ICE should provide details on the progress it is
        making regarding acquiring the necessary technology and designing the
        protocols for the EHRs. Once we receive evidence of ICE’s commitment to
        establishing an EHR system, we will close this recommendation.
        This recommendation is resolved and open.



16
 Human Rights Watch, Chronic Indifference: HIV/AIDS Services for Immigrants Detained by the
United States, December 2007.

      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                 Detention Facilities 

                                       Page 34

  ICE’s Comments to Recommendation #11
  ICE concurred with our recommendation. Through interaction with DIHS,
  ICE is creating a strategic plan to examine a variety of issues related to the
  recruitment and retention of clinical staff. This plan will include
  improvements to the processing time of background investigations,
  considerations for the use of incentives such as signing bonuses, student loan
  repayment, hiring additional health care recruiters, and collaborating with the
  U.S. Public Health Service for hiring and placing health care professionals to
  support ICE detention operations.

  OIG Analysis
  We look forward to receiving ICE’s staffing strategic plan. This plan should
  help ICE correct the difficult staffing problems that confront many health care
  providers across the country. In its action plan, ICE should set a timetable for
  completing the strategic plan.

  This recommendation is resolved and open.




ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                           Detention Facilities 

                                 Page 35

Appendix A
Purpose, Scope, and Methodology



                    ICE provided data showing that 33 immigration detainees died in custody
                    between January 1, 2005 and May 31, 2007. We examined incident reports
                    and other data about these cases, and interviewed field office personnel to
                    gain further insight into some detainee deaths. The two instances of detainee
                    death that were the focus of this report were referred to us through the OIG
                    Hotline.

                    We examined:

                        •	 Documentation regarding detainee death cases, including detainees’
                           detention and medical files;
                        •	 Detention standards used by ICE and other entities;
                        •	 Legal cases and international human rights agreements; and
                        •	 Facility monitoring reports and data held by detention facilities.

                    We conducted 53 interviews, including discussions with ICE headquarters and
                    field office staff. Conversations with field office staff covered detention
                    standards, detainee death incidents, and resource issues. We interviewed staff
                    from DHS’ Office for Civil Rights and Civil Liberties, public and private
                    sector clinical experts, immigration attorneys, and experts in correctional
                    facility oversight.

                    We toured seven facilities that house ICE detainees. These facilities were:

                        •	   Ramsey County Law Enforcement Center, St. Paul, Minnesota;
                        •	   Sherburne County Jail, Elk River, Minnesota;
                        •	   El Paso Service Processing Center, El Paso, Texas;
                        •	   Regional Correctional Center, Albuquerque, New Mexico;
                        •	   Central Texas Detention Facility, San Antonio, Texas;
                        •	   South Texas Detention Complex, Pearsall, Texas; and
                        •	   Laredo Processing Center, Laredo, Texas.

                    We conducted our review between May 2007 and August 2007 under the
                    authority of the Inspector General Act of 1978, as amended, and according to
                    the Quality Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency.




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 36

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 37

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 38

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 39

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 40

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 41

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 42

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration
                                             Detention Facilities 

                                                   Page 43

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 44

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration
                                             Detention Facilities 

                                                   Page 45

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration
                                             Detention Facilities 

                                                   Page 46

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 47

Appendix B
Management’s Comments to the Draft Report




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 48

Appendix C
Recommendations

                    Recommendation #1: Work with the Office of Inspector General to create a
                    policy that would lead to the prompt reporting of all detainee deaths to the
                    Office of Inspector General.

                    Recommendation #2: Work with the Division of Immigration Health
                    Services, the Centers for Disease Control, and other experts, to enhance
                    existing medical standards, rules for special needs individuals, and coverage
                    guidance related to infectious disease.

                    Recommendation #3: Revise medical intake screening forms and physical
                    exam questionnaires at detention facilities to include questions regarding the
                    detainee’s family history of cysticercosis.

                    Recommendation #4: Revise the notification section of ICE’s detainee death
                    standard to ensure that the agency and its detention partners report a
                    detainee’s death in states that require notification in the event of a death in
                    custody. Documentation of this reporting should appear in a detainee’s file.

                    Recommendation #5: Seek to enter into a memorandum of understanding
                    with the Department of Justice, Office of Federal Detention Trustee that
                    establishes a process that enables OFDT and ICE to regularly share
                    information resulting from facility site visits.

                    Recommendation #6: Revise monitoring protocols and the medical
                    detention standard to require sampling and continuous oversight of the 14-day
                    physical exam standard across ICE’s detention facilities.

                    Recommendation #7: Revise monitoring policies and other guidance given
                    to reviewers regarding the materiality of site visit report findings to ensure
                    that standards, such as tuberculosis screening and others related to access to
                    medical care, weigh more heavily on a facility’s compliance level.

                    Recommendation #8: Require reviewers preparing monitoring reports to use
                    narratives to illuminate special areas of concern and provide additional details
                    about issues relevant to a facility’s compliance status.

                    Recommendation #9: Develop a standard that requires facilities housing ICE
                    detainees to implement an internal review function.

                    Recommendation #10: Expedite all necessary discussions and resources to
                    develop a system of electronic health records for ICE detainees.

                    Recommendation #11: Work with the Division of Immigration Health
                    Services to identify all clinical staff shortages, then work with ICE’s clinical

                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 49

Appendix C
Recommendations

                    partners to develop and implement a strategy to fill clinical staff shortages at
                    immigration detention facilities.




                  ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                             Detention Facilities 

                                                   Page 50

Appendix D
Comparison of Various Detention Standards



We compared various standards from ICE’s Detention Operations Manual, ACA’s Performance-
Based Standards for Adult Local Detention Facilities, Fourth Edition, and OFDT’s Federal
Performance-Based Detention Standards Review Book.

This analysis focused on standards of particular interest to this review. The following table outlines
and compares standards across the three organizations. The table is divided into three primary areas:
standards related to physical exams and access to care, standards related to detainee mortality, and
certain standards related to medical issues and grievances.

         Standards Related to Physical Exams and Access to Care
  Standard Element                         ICE                              ACA                           OFDT
Health Appraisals          A health care provider will          A health care provider         The facility director
In addition to general     conduct a health appraisal           will conduct a health          ensures that medical,
requirements               and physical examination on          appraisal on each              dental, and licensed
regarding intake           each detainee within 14 days         detainee within 14 days        health care professionals
screening when the         of arrival at facility. All          of arrival at facility. In     complete mental health
detainee is admitted       appraisals will be performed         addition to following up       assessments within 14
to a facility,             according to National                on the intake screening,       days of arrival. Criteria
requirements include       Commission on Correctional           criteria regarding the         are outlined by each
a more detailed            Health Care and the Joint            appraisal are discussed.       assessment for the
medical exam of the        Commission on the                                                   appraisals to be
detainee within 14         Accreditation of Health                                             conducted.
days.                      Organization standards.
                           Standards for these exams
                           are not detailed.
                           In Service Processing
                           Centers and Contract
                           Detention Facilities, the In-
                           Processing Health Screening
                           Form (I-794) is followed up
                           and the health care provider
                           will provide treatment
                           accordingly.
Emergency Services         In local jails, a written plan for   A plan to provide 24-hour      Ensures that written
                           the delivery of 24-hour              emergency medical,             policies and procedures
                           emergency health care is             dental, and mental health      exist for emergency
                           required. No standards are           services is required.          health care, including
                           specified. Service                   Emergency evacuation           emergency evacuation
                           Processing Centers and               procedure is also              and transportation. A
                           Contract Detention Facilities        required. Criteria are         plan to provide 24-hour
                           will prepare plan in                 identified that includes       emergency response is
                           consultation with the facility’s     use of an emergency            not identified. Criteria are
                           routine medical provider. The        medical vehicle,               not identified for written
                           plan will include an on-call         hospitals, on-call             policies and procedures
                           provider, contact information        physicians, dentists, and      that are to be in place.
                           for local ambulances and             mental health                  However, staff will
                           hospitals; and procedures for        professionals.                 practice medical


                         ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                    Detention Facilities 

                                                          Page 51

Appendix D
Comparison of Various Detention Standards


                         facility staff to use providers     Additionally, back-up           emergency plans; bi-
                         consistent with security and        facilities and providers        annual trial runs are
                         safety. Additionally, first aid     should be predetermined.        documented.
                         and medical emergency
                         standards and criteria are
                         identified.
Requests for Medical     Request slips will allow            All detainees are               Detainees have daily
Care                     detainees to request health         informed about how to           opportunities to request
                         care services. Slips must be        access health care              health care services.
                         received by medical facility in     services during the             Detainee requests are
                         a timely manner. If                 admission/intake                documented and are
                         necessary, detainees will be        process. This is                triaged by a healthcare
                         provided with assistance in         communicated orally and         professional within 24
                         filling out the request slip.       in writing. Information is      hours on weekdays.
                         Clinical staff is to be available   translated into those           Appropriate health care
                         on scheduled basis to               languages spoken by             professionals triage
                         respond to requests.                significant numbers of          requests in a timely
                         In Service Processing               inmates. No member of           manner.
                         Centers and Contract                the correctional staff
                         Detention Facilities, request       should approve or
                         slips will be made freely           disapprove inmate
                         available for detainees to          requests for health care
                         request health care services        services.
                         on a daily basis. Request
                         slips will be made available in
                         English, and the foreign
                         languages most widely
                         spoken among detainees. If
                         necessary, detainees will be
                         provided assistance in filling
                         out the request slip.
                        Standards Related to Detainee Mortality
 Standard Element                        ICE                              ACA                            OFDT
Detainee Deaths          ICE’s detainee death                ACA’s policy focuses on         Like ICE and ACA, OFDT
                         standards articulate a variety      notification of proper          stresses the importance
                         of notification requirements        authorities. Also, the          of notifying proper
                         for the facility and ICE staff.     mandatory internal              authorities. Staff is to be
                         Although mortality reviews by       review policy requires          trained to respond to
                         the facility are not specifically   that all deaths in custody      serious illness or detainee
                         required, the overall policy        are to be examined by           death. Examination of
                         includes commendable levels         the facility.                   required mortality reviews
                         of detail about how the facility                                    are part of site visit
                         and ICE are to address                                              team’s assessment of
                         detainee death cases.                                               facility’s compliance.
                                                                                             Results of mortality
                                                                                             review are acted on
                                                                                             immediately.
Suicide Prevention       Staff training requirements         Staff is required to be         Policy specifically
All three entities       are similar to ACA and OFDT.        trained on suicide risk         requires that the facility is
recognize the            Staff is required to observe        and intervention. Mental        to have a sufficient


                       ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                  Detention Facilities 

                                                        Page 52

Appendix D
Comparison of Various Detention Standards


importance of              “imminently suicidal”               health appraisals are to        number of clinicians to
training, observation,     detainees no less than every        include assessment of           deal with suicidal cases.
and notification of        15 minutes.                         suicide risk. Continuous        Family members are to
authorities.                                                   observation required for        be notified of an
                                                               suicidal inmates until          attempted suicide.
                                                               intervention by clinicians.
       Certain Standards Related to Medical Issues and Grievances
 Standard Element                         ICE                              ACA                           OFDT
Dental Care,               Initial dental screening due        Initial dental screening        Like ICE’s policy, OFDT
Assessments                within 14 days. If dentist not      due within 14 days. A           standard does not require
                           available, a physician,             dentist or trained              that a dentist perform the
                           physician’s assistant, or           personnel under the             assessment.
                           nurse practitioner can              supervision of a dentist
                           perform the assessment.             should perform the
                                                               screening.
Dental Care, Routine       Routine care may be                 Requires “defined scope         Routine care is to be
                           provided for individuals            of services” for detainees      provided if the individual
                           detained for more than 6            without reference to            is detained greater than
                           months                              length of stay.                 one year.
First Aid Kits             Kits are to be placed               Designated health               Not as specific as ACA.
                           according to ACA policy.            authority and facility          Standard requires that
                                                               administrator collaborate       supplies for medical
                                                               to determine locations for      emergencies are to be
                                                               kits. Health staff              readily available.
                                                               determines contents of
                                                               kits. Defibrillator must be
                                                               available to facility staff.
Grievances                 ICE’s process is outlined in        ACA’s grievance                 Grievance standard
                           more detail than ACA and            standard does not have          includes many of the
                           OFDT standards. Facilities          specificity. Facilities are     elements found in ICE’s
                           are to use an informal              required to have                standard, although an
                           grievance process in an             grievance procedures            informal process is not
                           attempt to resolve concerns         that include one level of       specified. Standards in
                           quickly, but detainees have a       appeal, but specific            other areas, such as
                           right to file a formal written      requirements are not            discrimination prevention,
                           grievance. Also,                    outlined.                       require review of all
                           requirements at Contract                                            grievances alleging
                           Detention Facilities and                                            discrimination based on
                           Service Processing Centers                                          race, gender, religion,
                           are more detailed than for                                          and national origin.
                           county detention facilities.
                           One specific difference for
                           contract detention facilities
                           and service processing
                           centers is that only detainees
                           can file a grievance.

                           ICE’s policy on staff-detainee
                           communication permits
                           detainees to make informal


                         ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                    Detention Facilities 

                                                          Page 53

Appendix D
Comparison of Various Detention Standards


                            grievances to ICE. Formal
                            grievances are to be resolved
                            by the facility.
HIV/AIDS                    A detailed standard for “the        A mandatory standard            Policy on chronic
                            accurate diagnosis and              that is not as specific as      conditions requires that
                            medical management” of              ICE’s HIV policy. The           individuals with AIDS are
                            HIV/AIDS. The standard              written plan required           to receive regular care by
                            requires that detainees with        under the standard must         physicians who provide
                            active tuberculosis should be       include procedures for          for individual treatment
                            evaluated for HIV infection.        identification,                 plans.
                            Facilities are also directed to     surveillance, treatment,
                            report cases per state and          and other areas.
                            federal rules.

                            According to DIHS coverage
                            policy, follow-up care is
                            covered. HIV testing is
                            covered if a clinician
                            documents the need.
Mental Health               Initial health screening is to      Establishes that an             OFDT standards include
In September 2006,          include mental health               “appropriate mental             additional details on
the Bureau of Justice       assessment. Facility staff is       health authority”               specific mental health
Statistics reported         to be trained to recognize the      approves mental health          policies. For example,
that half of jail and       signs and symptoms of               services. Standards are         OFDT provides details on
prison inmates have         mental illness as a means to        to ensure that facility staff   the contents of mental
mental health needs.        decrease suicide risk. The          can identify mental health      health appraisals and the
                            standard establishes that           needs, proper care is           need to provide needed
                            mental health care will             provided (generally             medications for routine
                            generally be provided in a          through referrals for           and emergency
                            hospital or community setting,      outside care).                  situations.
                            rather than the detention
                            facility.
Special Needs               The Officer in Charge is to be      Clinical and facility           OFDT has the most
Individuals                 notified when individuals are       personnel are to ensure         specific policy in this
Detainees who have          diagnosed with special              “maximum cooperation”           area, including steps to
certain specific            needs. Examples of                  on individuals who are          providing health care for
medical issues are          conditions requiring “special       chronically ill, disabled,      the special needs
considered to have          attention” are pregnancy,           geriatric, or seriously         population. These
“special needs.” The        special diets, medical              mentally ill. Special           include targeted physical
concept is mentioned        isolation, and AIDS.                needs individuals are           exams, use of chronic
by all three entities,                                          granted a hearing and           care clinics, necessary
but defined differently                                         additional due process          subspecialty visits, and
by each.                                                        steps before transfer to        preventive care.
                                                                another facility.




                          ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                     Detention Facilities 

                                                           Page 54

Appendix E
Major Contributors to this Report



              William McCarron, Chief Inspector, Department of Homeland Security,
              Office of Inspections

              Darin Wipperman, Senior Inspector, Department of Homeland Security,
              Office of Inspections

              Jacob Farias, Inspector, Department of Homeland Security,
              Office of Inspections




                    ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                               Detention Facilities 

                                                     Page 55

Appendix F
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Director, GAO/OIG Liaison Office
                        Chief Security Officer
                        Assistant Secretary, U.S. Immigration and Customs Enforcement
                        U.S. Immigration and Customs Enforcement Audit Liaison
                        Assistant Secretary for Public Affairs
                        Assistant Secretary for Policy
                        Assistant Secretary for Legislative Affairs

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner


                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




                      ICE Policies Related To Detainee Deaths and the Oversight of Immigration 

                                                 Detention Facilities 

                                                       Page 56

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
